HHS/OIG, Audit - "Review of Rehabilitation Services at Skilled Nursing
Facilities, Avante at Leesburg," (A-06-06-00107)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Rehabilitation Services at Skilled Nursing Facilities - Avante at Leesburg," (A-06-06-00107)
May 25, 2007
Complete
Text of Report is available in PDF format (2.1 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the
services on rehabilitation claims paid to Avante At Leesburg (Avante) of
Leesburg, Florida, were medically necessary, properly billed, and adequately
supported by medical documentation.  A complete medical review of the 100 claims
sampled showed that 20 included medically unnecessary or improperly billed
skilled services.  As a result, we estimated that
Medicare overpaid Avante at least $708,086 for services that did not meet
Medicare requirements.
We recommended that Avante (1) refund to the Medicare
program $708,086 in overpayments, (2) ensure that future claims with skilled
services comply with Medicare requirements on medical necessity, (3) establish
adequate controls to ensure that the correct claims are adjusted, and (4) work
with its fiscal intermediary to determine the amount of overpayments made
subsequent to our audit period and refund the overpayments to the Medicare
program.  Avante disagreed with the medical
reviewers determination that 30 Resource Utlization Groups be denied or downcoded.  However, we
relied on the knowledge and expertise of the medical reviewers; therefore, we
stand by the findings and recommendations.